No.

IN THE SUPREME COURT OF THE UNITED STATES
JOVANIJACOBO
Petitioner,
vs.

UNITED STATES OF AMERICA,
Appellant.
On Petition for a Writ of Certiorari to the United States Court of Appeals
for the Eighth Circuit

PETITION FOR WRIT OF CERTIORARI
JOVANI JACOBO, Petitioner
richard h. McWilliams
Assistant Federal Public Defender
District of Nebraska
Counsel of Record
222 South 15th Street, Suite #300N
Omaha, Nebraska 68102
Telephone No.: (402) 221-7896
Counsel of Record for Petitioner

Question Presented
The federal compassionate-release statute, 18 U.S.C. § 3582(c)(1)(A), permits
sentencing courts to release federal prisoners for “extraordinary and compelling
reasons.” Does § 3582(c)(1) (A)’s use of the term “extraordinary” allow these courts to
employ personal observation and anecdotal data in deciding these motions.

1

Table of Contents
Question Presented

1

Table of Authorities

m

Petition For A Writ Of Certiorari

1

Opinions Below

1

Jurisdiction

1

Constitutional and Statutory Provisions Involved

1

Statement of the Case

2

Reasons for Granting the Writ

4

Conclusion

8

Appendix

1A

Placeholder Sealed Order

... 1A

Judgment, filed 3/18/2021

5A

Order, filed 4/16/2021

6A

u

Table of Authorities
Cases:
United States v. Aruda, 993 F.3d 797 (9th Cir. 2021)

6

United States v. Brooker, 976 F.3d 228, 234 (2d Cir. 2020)

6

United States v. Bryant, 996 F.3d 1243, 1247 (11th Cir. 2021) Oct. 31, 2019)

6

United States v. Cooper, 996 F.3d 283, 287 (5th Cir. 2021)

5

United States v. Gunn, 980 F.3d 1178, 1180 (7th Cir. 2020)

6

United States v. Jones, 980 F.3d 1098, 1100 (6th Cir. 2020)

4,6

United States v. McCoy, 981 F.3d 271, 284 (4th Cir. 2020)

6

United States v. McGee, 992 F.3d 1035, 1050-51 (10th Cir. 2021)

6

United States v. Powell, No. 4:17CR7, Dkt#85, (M.D. Ga. Oct. 31, 2019)

7

United States v. Shkambi, 993 F.3d 388 392 (5th Cir. 2021)

6

Statutes:
18 U.S.C. § 3553(a)

5

18 U.S.C. § 3582(c)

i, 1, 3, 4, 5, 6, 7,8

21 U.S.C. §846

2

28 U.S.C. § 994(t)

5

28 U.S.C. § 1254

1

United States Sentencing Guidelines:
U.S.S.G. § 1B1.13(1)(A)

5, 6,7

iii

Other Authorities:
Compassionate Release Data Report, Calendar Year 2020, July 2021

5

Supreme Court’s Order Rescinding Prior COVID Orders, 594 U.S., July 19, 2021 .1
The Federal Bureau of Prisons’ Compassionate Release Program, 1-2013-006 (April
2013).,................................................................................................................................ 4

i

!

:

IV

Petition For A Writ Of Certiorari
Jovani Jacobo respectfully petitions the Court for a writ of certiorari to review
the judgment entered by the United States Court of Appeals for the Eighth Circuit
on March 18, 2021 and its denial of Jacobo’s petition for rehearing on April 16, 2021.
Opinions Below
The district court’s Restricted Memorandum and Order is unpublished, but a
copy of that Order is also in the Appendix. App. 1A. The unpublished decision of the
United States Court of Appeals affirming the district court’s decision is appended to
this Petition. App. 5A. The court of appeals’ unpublished denial of Jacobo’s petition
for rehearing is also appended. App. 6A.
Jurisdiction
The judgment of the Court of Appeals for the Eighth Circuit was entered on
March 18, 2021. App. 5A. That Court denied Jacobo’s petition for rehearing on April
16, 2021. App. 6A. Jacobo invokes this Court’s jurisdiction under 28 U.S.C. §1254(1),
having timely filed this petition for a writ of certiorari within 150 days of the Court
of Appeal’s denial of a timely petition for rehearing. See Supreme Court’s Order
Rescinding Prior COVID Orders, 594 U.S.__ , July 19, 2021 (extending the 150-day
deadline for petitions for writ of certiorari in cases in which the lower court denied a
timely petition for rehearing prior to July 19, 2021).
Constitutional and Statutory Provisions Involved
Jovani Jacobo’s Petition for a Writ of Certiorari involves the federal
1

compassionate-release statute, 18 U.S.C. § 3582(c)(1)(A), which states:
(c) Modification of an Imposed Term of Imprisonment.-—The court may
not modify a term of imprisonment once it has been imposed except
that—
(1) in any case—
(A) the court, upon motion of the Director of the Bureau of Prisons, or
upon motion of the defendant after the defendant has fully exhausted
all administrative rights to appeal a failure of the Bureau of Prisons to
bring a motion on the defendant’s behalf or the lapse of 30 days from
the receipt of such a request by the warden of the defendant’s facility,
whichever is earlier, may reduce the term of imprisonment (and may
impose a term of probation or supervised release with or without
conditions that does not exceed the unserved portion of the original
term of imprisonment), after considering the factors set forth in section
3553(a) to the extent that they are applicable, if it finds that—
(i) extraordinary and compelling reasons warrant such a
reduction; or
(ii) the defendant is at least 70 years of age, has served at least
30 years in prison, pursuant to a sentence imposed under section
3559(c), for the offense or offenses for which the defendant is currently
imprisoned, and a determination has been made by the Director of the
Bureau of Prisons that the defendant is not a danger to the safety of
any other person or the community, as provided under section 3142(g);
and that such a reduction is consistent with applicable policy
statements issued by the Sentencing Commission!)]
Statement of the Case
On March 14, 2017, Jovani Jacobo pled guilty to conspiring to distribute
methamphetamine in violation of 21 U.S.C. § 846. On July 21, 2017, the district
court sentenced Mr. Jacobo to serve 121 months in prison — the low end of the
guideline range and just one month above the mandatory minimum — to be followed
by a five-year term of supervised release. Jacobo has been in continuous
confinement since November 21, 2016. He is in a federal prison camp in Yankton,
South Dakota and his projected release is July 24, 2025.
2

While Mr. Jacobo was in prison, the mother and guardian of his then-four-year-old
son incurred a series of arrests and the child was placed in the custody of the Department of
Health and Human Services. A deputy county attorney in Dawson County, Nebraska, filed
a petition in juvenile court alleging, among other things, that Mr. Jacobo’s son, JQ:
lack[ed] proper parental care by reason of the fault or habits of his or her
parent, guardian, or custodian; whose parent, guardian, or custodian neglects
or refuses to provided proper or necessary subsistence, education, or other
care necessary for health, morals, or well-being of such juveniles; or who are
in a situation or engage in an occupation dangerous to life or limb or injurious
to the health or morals of such juveniles.
After a series of arrests and charges, the child’s mother was convicted and
sentenced to prison. As Mr. Jacobo watched helplessly from prison, the permanency
goal for his son changed from reunification to adoption.
On June 4, 2020, Jovani Jacobo, citing the drug abuse of his son’s mother and
the imminent loss of his parental rights, moved for his compassionate release under
18 U.S.C. § 3582(c)(1)(A). On February 26, 2021, having received briefing, the district
court denied Mr. Jacobo’s motion. App. 1A.
The district court concluded that Mr. Jacobo’s case was

and that the
App. 1A, 3A. The

circumstances were
district court found, however, that the circumstances were

noting the frequency of drug use among parents. Id. The district
about Mr. Jacobo’s underlying

court also commented that it
offense and denied the motion. Id. at 4A.

3

On March 18, 2021, the Eighth Circuit Court of Appeals summarily affirmed
the district court’s decision without permitting briefing on the matter. App. 5A. On
April 16, 2021, the court of appeals denied Jacobo’s petition for rehearing. App. 6A.
Reasons for Granting the Writ
Section 3852(c)(1)(A) of Title 18, U.S. Code, governs the modification of an
imposed term of imprisonment based upon “extraordinary and compelling reasons”
(§ 3582(c)(l)(A)(i)) or the defendant’s age (§ 3582(c)(l)(A)(ii)). Before December 1,
2018, only the Director of the Bureau of Prisons could bring such motions and very
few were filed. In 2010 and 2011, for example, federal prison wardens reviewed
approximately 618 inmate requests for compassionate release and forwarded along
just 64 to the Director of the Bureau of Prisons. U.S. Department of Justice, Office
of the Inspector General, The Federal Bureau of Prisons’ Compassionate Release
Program, 1-2013-006 (April 2013), https://oig.iustice.gov/reports/2013/el306.pdf.
(hereinafter “OIG Report.”))
“This drought of compassion concluded in 2020, when the forces of law and
nature collided.” United States v. Jones, 980 F.3d 1098, 1100 (6th Cir. 2020). With
the December 1, 2018 First Step Act amendment to 18 U.S.C. § 3582, sentencing
courts could suddenly consider prisoner-filed motions for compassionate release
under certain circumstances. Within 16 months of the amendment’s passage, the
World Health Organization had declared the coronavirus (COVD-19) outbreak to be
a global pandemic and President Trump had declared a national emergency. See
4

United States Sentencing Commission, Compassionate Release Data Report,
Calendar Year 2020, July 2021 at 3
(https://www.ussc.gov/sites/default/files/pdf/research-and-publications/federalsentencing-statistics/compassionate-release/20210714-Compassionate-Release.pdf)
(last accessed September 7, 2021) (hereinafter “Compassionate Release Data
Report”).
In calendar year 2020, federal district courts received 12,885 motions for
compassionate release under 18 U.S.C. § 3582(c)(1)(A). Compassionate Release Data
Report at Table 1.
The problem is: ‘Congress has not defined what constitutes ‘extraordinary
and compelling reasons’ for a sentence reduction and similarly did not do so in the
First Step Act.” United States v. Cooper, 996 F.3d 283, 287 (5th Cir. 2021). Congress
instead delegated to the United States Sentencing Commission to “promulgat[e]
general policy statements regarding the sentencing modification provisions in
section 3582(c)(1)(A).” 28 U.S.C. § 994(t); see also Cooper, 996 F.3d at 287. The
applicability of that policy statement - § 1B1.13 of the U.S. Sentencing Guidelines
Manual - has generated a circuit split.
Section 1B1.13 states, in pertinent part, “Upon motion of the Director of the
Bureau of Prisons under 18 U.S.C. § 3582(c)(1)(A), the court may reduce a term of
imprisonment...if, after considering the factors set forth in 18 U.S.C. § 3553(a)...the
court determines that... [e]xtraordinary and compelling reasons warrant the
5

reduction[.]” U.S.S.G. § 1B1.13(1)(A). The accompanying application note provides
an inclusive list of “extraordinary and compelling reasons,” including the
defendant’s medical condition, age, family circumstances, and “other reasons” “[a]s
determined by the Director of Bureau of Prisons....” Id. at Application Note 1(A) 1(D).
Neither § 1B1.13 nor its application notes have been amended since the First
Step Act permitted prisoners to file compassionate-release motions directly. The
Second, Fourth, Fifth, Sixth, Seventh, Ninth, and Tenth Circuits have concluded
that § 1B1.13 is not an “applicable policy statement” to prisoner-filed
compassionate-release motions. See United States v. Brooker, 976 F.3d 228, 234 (2d
Cir. 2020); United States v. McCoy, 981 F.3d 271, 284 (4th Cir. 2020); United States
v. Shkambi, 993 F.3d 388 392 (5th Cir. 2021); Jones, supra; at 1111 (6th Cir. 2020);
United States v. Gunn, 980 F.3d 1178, 1180 (7th Cir. 2020); United States v. Aruda,
993 F.3d 797 (9th Cir. 2021) (per curiam); and United States v. McGee, 992 F.3d
1035, 1050-51 (10th Cir. 2021).
The Eleventh Circuit, however, disagrees and binds prisoner-filed motions to
the examples and grounds listed in § 1B1.13. United States v. Bryant, 996 F.3d
1243, 1247 (11th Cir. 2021).
The absence of a binding “extraordinary and compelling” definition in 18
U.S.C. § 3582(c)(1)(A) prevents uniform handling of the explosion of these
compassionate-release cases.
6

The Eighth Circuit has not weighed in on this Circuit split. To be sure, the
district court in Jacobo’s case chose to treat § IB 1.13 as non-binding. But the Eighth
Circuit’s summary affirmance of the district court’s denial of compassionate release
has further prevented the emergence of a proper definition of “extraordinary” for
purposes of 18 U.S.C. § 3582(c)(1)(A). Mr. Jacobo specifically wanted the court of
appeals to resolve whether a drug-induced spiral by the guardian of a prisoner’s
child could be considered “extraordinary” under the compassionate-release statute,
particularly when the facts of the guardian’s addiction were unknown to the district
court at the time of sentencing and not foreseeable. Cf. United States v. Powell, No.
4:17CR7, Dkt. Entry #85, *5-*9, n.l (M.D. Ga. Oct. 31, 2019) (taking into
consideration the fact that the unavailability of the child’s other parent was known
at the time of sentencing and impacted the original sentence.) Moreover, Jacobo
wanted the court of appeals to resolve whether the district court erred by defining
“extraordinary” based primarily (if not solely) upon anecdotal evidence and
observation. None of these questions have been answered and, under the present
regime, will continue be subjected to the individual observations and beliefs of each
federal district judge.
Whether the Eighth Circuit had joined the seven circuits rejecting § 1B1.13
in prisoner-filed cases or joined the Eleventh Circuit’s adoption of it, a system where
677 different federal judges are individually defining “extraordinary and
compelling” is untenable. Only this Court can prevent the disparate treatment such
7

a situation will inevitably bring to a criminal-justice system already full of
inequities.
Conclusion
Jovani Jacobo is — like many prisoners whose compassionate-release motions
have been denied - the victim of a rudderless standard for “extraordinary and
compelling.” Seven circuits do not tie the definition to a Sentencing Commission
policy statement. One circuit does. Jacobo’s circuit has declined to decide the
matter, deferring to the district court’s anecdotal conclusion about what is and is
not “extraordinary.”
With the First Step Act and COVID-19 colliding to create an explosion in this
area of litigation, this Court should grant Jacobo’s writ of certiorari to decide what
is and what is not “extraordinary” and what the district courts can;and cannot
consider in defining that term for the purposes of 18 U.S.C. § 3582(c)(1)(A).

JOVANI JACOBO, Petitioner^
By:

-gL

richarb h. McWilliams
Assistant Federal Public Defender
Counsel of Record
222 South 15th Street, Suite #300N
Omaha, NE 68102
(402)221-7896
rich mcwilliams@fd.org

8

